<html>
<title> - MARKUP OF H. RES. 173</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                         MARKUP OF H. RES. 173

=======================================================================

                                 MARKUP

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2017

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      




                       Available on the Internet:
       www.gpoaccess.gov/congress/house/administration/index.html
       
       
       
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-186                   WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001           
       
       
       
       
       
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia

 
                         MARKUP OF H. RES. 173

                              ----------                              


                        WEDNESDAY, MARCH 8, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:53 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Smith, Loudermilk, 
Brady, and Raskin.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Senior 
Advisor; Bob Sensenbrenner, General Counsel; Max Engling, 
Franking Director; George Hadijski, Director of Member 
Services; Erin McCracken, Communications Director; C. Maggie 
Moore, Legislative Clerk; Rob Taggard, Deputy Legislative 
Clerk/Oversight; Cole Felder, Counsel; Alex Attebery, Staff 
Assistant; Jamie Fleet, Minority Staff Director; Matt Pinkus, 
Minority Senior Policy Advisor; and Eddie Flaherty, Minority 
Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for today's Committee markup. A quorum is 
present. So we may proceed. The meeting record will remain open 
for 5 legislative days so Members may submit any materials they 
wish to be included therein.
    Today we will consider H. Res. 173, the Committee Funding 
Resolution which authorizes the committee budgets for the 115th 
Congress. Every Congress, the House looks to this Committee to 
carry out our responsibility of determining the funding needed 
for standing House committees this year and next. Our panel has 
received input from the chairmen and ranking members of each 
standing committee to help set appropriate funding levels. I 
thank each of them for presenting a budget request that is 
targeted to meet their legislative and oversight 
responsibilities. I am confident that, with their assistance, 
our Committee has put forward a funding resolution that applies 
appropriate and targeted amounts to effectively support each of 
the House committees as they continue their work.
    I would now like to recognize the Committee's Ranking 
Member, Mr. Brady, for the purpose of providing an opening 
statement if he wishes.
    Mr. Brady. Thank you, Mr. Chairman. Thank you for calling 
this meeting this morning.
    And I am pleased to support the Committee Funding 
Resolution. I will ask my colleagues to do same.
    I also appreciate your bipartisan approach to this process, 
working with me to protect the rights of the minority. On 
behalf of my colleagues on the Armed Services Committee, the 
increase is very much needed, and it will be put to good use. I 
hope we are able to take this matter to the floor quickly and 
get our colleagues the resources they need.
    You know, we hear from every one of our ranking members and 
our chairmen, and all they keep saying is they have to get 
qualified staff. We need qualified staff all around this 
country. And in order to get qualified staff, you have got to 
pay them. And we don't pay them nowhere near the level that 
they would get paid in private service in the private sector. 
So we appreciate, you know, their contribution to the American 
people, and we appreciate the contribution to this here. And I 
think that most of them--almost all of them--have said that any 
increase would be going to staff and getting and keeping 
qualified staff, so they don't leave, and being able to attract 
qualified staff. So I think it is a good approach that we are 
doing a little bit and a little bit more, a little bit more, 
and maybe we can maintain and keep that level.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    The Chairman. The gentleman yields back.
    I would ask if any other Member of the Committee wishes to 
be recognized for the purpose of providing an opening 
statement.
    Seeing none, I now call up and lay before the Committee H. 
Res. 173, the Committee Funding Resolution.
    Without objection, the first reading of the Resolution is 
dispensed with, and the Resolution is considered read and open 
for amendment at any point.
    [The bill follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    The Chairman. Is there any debate?
    Are there any Members that want to offer an amendment to 
the Resolution?
    Seeing none, I move the Committee favorably report H. Res. 
173.
    The question is on the motion.
    All those in favor, signify by saying aye.
    Any opposed, by nay.
    In the opinion of the Chair, the ayes have it and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    Without objection, the markup is adjourned.
    Thanks.
    [Whereupon, at 10:56 a.m., the Committee was adjourned.]

                                  <all>
</pre></body></html>
